HHS/OIG Audit:"Audit of the Community Resource Group's Office of Community Services Grant (90EF0036),"(A-06-01-00072)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Community Resource Group's Office of Community Services Grant
(90EF0036)," (A-06-01-00072)
December 3, 2001
Complete
Text of Report is available in PDF format (475 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our audit of grant number 90EF0036 awarded
to Community Resource Group, Inc. (CRG) by the Administration for Children and
Families (ACF), Office of Community Services (OCS).  The award covered the
period September 30, 1998 through September 29, 2000. The objectives of our audit
were to assess CRG's performance in achieving project objectives; compliance with
terms and conditions of the grant; and capability to properly record, account for
and report on Federal funds. The CRG substantially achieved all of the project
objectives.  In addition, CRG complied with the terms and conditions of the
grant.  However, CRG did not always follow its procedures relating to drawing
down Federal funds.  The CRG did not concur.   However, CRG needs to
strengthen its internal controls to minimize the amount of Federal cash on hand
as required by Federal regulations.